      INSPECfOR GENERAL




      UNITED STATES INTERNATIONAL TRADE COMMISSION

                            WASHINGTON, D.C. 20436


September 17, 1992


                      UVIDf 01' usncts LOCAL AlIA MI11IOIlt
                         ADMINISr"'!'ION AND cotmlOLS



During the last few years, the Commission has invested a substantial amount of
money and effort into automating agency functions and specifically in
implementing the Local Area Network (LAN). The overall objective of this review
was to determine whether the Commission has implemented a program that ensures
effective management and operation of the LAN system.

This review was conducted by Cotton & Company in accordance with the Government
Auditing Standards issued by the Comptroller General of the United States. The
results of their review are presented as an attachment to this report. They
found that the Commission's procedures were sufficient, in all material respects,
to provide for effective LAN administration and control.

The auditors had the following findings:

            Dial-up telephone access to the LAN is not properly secured;

            The LAN files for two offices are not backed up on weekends;

            A policy does not exist establishing a frequency standard for virus
            checking and the practice throughout the Commission is inconsistent;

            A formal system or procedures does not exist to identify the type
            and number of software packages purchased or in use which is needed
            to demonstrate compliance with Federal licensing statutes;

            A policy statement does not exist concerning the unauthorized use
            or duplication of copyrighted software;

            A disaster recovery or contingency plan does not exist for offsite
            operation of the LAN in the event of a catastrophic incident; and

            The LAN administrator's internal control responsibilities are not
            set forth in a formal statement.
Three matters were noted for management's consideration. 1) Electronic access
keys issued to employees are not routinely deactivated upon termination of
emploYment. 2) The LAN user manual does not contain current and complete user
information.   3) Commission employees not in the Office of Administration
reported a deterioration in the quality of LAN support, which we attribute at
least in part to the extended vacancy of the Chief position in the Office
Automation and Support Division.

Recommendations relating to the findings are presented on pages 6 through 8 of
the report.    In summary, we recommend that the Director of Administration
implement appropriate policies and procedures or take other needed actions
concerning call-back controls, weekend backups, virus scans, software inventory,
unauthorized copying of software, disaster recovery (contingency) plans, and LAN
internal controls.

The Director of Administration generally agreed with the findings and
recommendations. A summary of the Director's comments on the findings and our
responses are presented on page 8 of the report. The Director's comments are
presented in their entirety as an appendix to the report.


                                     ~
                                  ~:~ E.     Altenhofe
                                     Inspector General

Attachment
                         TABLE OF CONTENTS


Attachment   Report on the Review of the USITC's Local Area Network
             Administration and Controls

Appendix     Memorandum from Director, Office of Administration,
             dated August 12, 1992, on Draft Report
                                                         Attachment




                                  REPORT ON THE REVIEW OF THE
                                          UNITED STATES
                               INTERNATIONAL TRADE COMMISSION'S
                                       LOCAL AREA NETWORK
                                  ADMINISTRATION AND CONTROLS




Prepared by:


Cotton & Company
Certified Public Accountants
Alexandria, Virginia
                                  COTTON Ptmuc
                                         &COMIJ\NY       CERTIFIED                  ACCOUNTANTS

                       100 Scum RoYAL STREET • A1EANDRIA, VIRGINIA 22314 • (703) 836-6701 • TaocoPIER: (703)836-0941

DAVlD L COTI'ON, CPA                   8RENoA N. 8uRzENsK1, CPA                               ROBERT  L Fi...EsHER., CPA      CATIiEJlINE   L NOCERA., CPA
CHARLES HAYWARD, CPA                   MJCHAEL W GIl.USPIE. CPA                                KEVIN P McFADDfN, CPA          Ei..uN P REm. CPA




                                                                     June 4, 1992


          Ms. Jane E. Altenhofen
          Inspector General
          United States International Trade Commission
          500 E Street, SW
          Washington, DC 20436

          Dear Ms. Altenhofen:

               We reviewed the United States International Trade Commission's (ITC)
          policies and procedures for managing its Local Area Network (LAN). Our
          overall objective was to determine if ITC has implemented a program that
          ensures effective management and operation of the LAN system. Specific
          objectives were to determine if ITC:

                   •       Administrative Management: Effectively performs the basic
                           management functions of planning, organizing, directing, and
                           controlling LAN resources.

                   •       Configuration Management: Maintains adequate documentation
                           concerning the components and configuration of its LAN, imple-
                           ments and enforces standards for network components and config-
                           urations, and adequately controls changes to network components
                           and configurations.

                   •       Managing Network Availability and Performance: Establishes
                           effective methods and procedures to ensure that network re-
                           sources are available to users to the maximum extent needed and
                           that network resources perform with needed speed, efficiency,
                           and accuracy.

                   •       Application Management: Maintains adequate documentation on
                           its application software, implements standards and enforces
                           licensing and copyright restrictions for software, and controls
                           changes to its applications software.

                   •       User Support: Provides effective user support through train-
                           ing, ongoing technical support, and an information exchange
                           program.




                                      MEMBER:   AMaucAN lNS1TT1.JTE OF   CERTIF1ED PUBUC ACCOll/lITANTS, DtvtSJON FOR FIRMS
     •    Cost: Maintains a control system that monitors LAN costs and
          determines the actual costs incurred to acquire, install, and
          operate the LAN.

     •    Security: Provides effective security over LAN information
          resources through a formal ADP security program incorporating
          written policies and procedures that meet Federal laws and
          regulations.

     We performed our review in accordance with generally accepted Government
auditing standards. Our review included the tests and procedures we deemed
necessary to meet the review objectives described above.

     Our review was made for the limited purpose described above and, as such,
would not disclose all material weaknesses in lTC's internal control system.
Accordingly, we do not express an opinion on lTC's internal control system
taken as a whole.

     Based on our review for the limited purposes described above, lTC's
procedures were sufficient, in all material respects, to provide for effective
LAN administration and control. Our review did, however, disclose several
conditions that we believe warrant corrective action. In addition, we noted
certain other matters for management's consideration. The review results are
described in detail in the accompanying report.

     We discussed our review results with the Director, Office of Information
Resource Management (OIRM); the acting chief of Office Automation Support
Division; the senior network administrator; the special assistant for OIRM
planning; and other headquarters personnel responsible for the overall
management of lTC's LAN.

     The accompanying report is intended solely for lTC's information and use
and should be used for no other purpose.

                                      Very truly yours,

                                      COTTON & COMPANY



                                By:                            _
                                      Kevin P. McFadden, CPA
                             CONTENTS




1   INTRODUCTION                              1
    Background                                1
    Objective                                 2
    Scope                                     2
    Methodology                               2

2   REVIEW RESULTS                            4
    Findings                                  4
    Other Matters for Consideration           6
    Recommendations Regarding Findings        6
    Suggestions Regarding Other Matters for
      Consideration                           8

    APPENDIX
    Commission's Response
                          REPORT ON THE REVIEW OF THE
                UNITED STATES INTERNATIONAL TRADE COMMISSION'S
                LOCAL AREA NETWORK ADMINISTRATION AND CONTROLS

                            PART 1.   INTRODUCTION


     In this part, we discuss the review background, objective, scope, and
methodology.


BACKGROUND

     The United States International Trade Commission (ITC) is an independent
Federal agency with six commissioners, a staff of about 500, and Fiscal Years
(FY) 1991 and 1992 budgets of $40,299,000 and $42,434,000, respectively.

     During the past few years, ITC has invested a substantial amount of money
and effort into automating agency functions. Virtually every employee has a
personal computer linked to the Local Area Network (LAN) system, which became
operational in 1988. 1 The primary LAN system is Banyan Vines. The Office of
Tariff Affairs and Trade Agreements (TATA) is currently connected to two LAN
systems, the Banyan Vines and Novell; the latter is in the process of being
phased out. In December 1991, ITC issued A Five-Year Plan for Information
Resources Management that outlines major changes planned for the LAN.

     As of January 1992, the general-purpose LAN consisted of 11 Banyan file
servers and approximately 470 personal computers as·workstations. The system
includes two modem pools offering dial-out service to other facilities. A
limited dial-in service is also provided.

     The LAN supports a variety of office automation functions including word
processing, electronic mail, spreadsheets, and end-user data-base applica-
tions. The system contains unclassified and sensitive information, such as
confidential (proprietary) business information. Applications software
includes WordPerfect, Lotus Networker, dBase III, and Harvard Graphics. Users
are given LAN training and a guide prior to using the system.

     As set forth in USITC Directive 1028.1, dated April 21, 1991, the Office
of Information Resources Management (OIRM) is responsible for coordinating and
maintaining lTC's data collection, statistical support, public reporting, and
information processing activities. Within DIRM, the Office Automation Support
Division is responsible for all network administration and office automation
technical support. The network administration includes all LAN connectivity
and communications interfaces with computer service bureaus and mainframes,
network hardware, software, maintenance, cabling, user support, and standards.




     IA LAN is a geographically confined computer-based communication system
capable of transmitting information or data between stations.

                                      1
Technical support includes the installation, maintenance, and support for a
wide range of end-user software and providing end-users with supplies and
services as needed.


OBJECTIVE

     The overall objective of this review was to determine if ITC has imple-
mented a program that ensures effective management and operation of the LAN
system. The objective encompasses the following elements:

     •      Administrative management
     •      Configuration management
     •      Managing network availability and performance
     •      Application management
     •      User support
     •      Cost
     •      Security




     We conducted our review at ITC headquarters in Washington, DC, from May 5
to June 4, 1992.

      We conducted numerous discussions with the senior network administrator
and the special assistant for OIRM planning. We also met with other ITC
personnel responsible for the overall management of "lTC's LAN, including
representatives from the Offices of Industries, Investigations, Economics, and
TATA.


METHODOLOGY

     We gathered data for our review through interviews and analyses of
policies, documents, and reports determined to be important to the process of
managing lTC's LAN.

     The major guidelines and operating regulations we used to evaluate the
management and administration of lTC's LAN included the following criteria:

     •      Office of Management and Budget (OMB) Circular A-II, Prepa-
            ration and Submission of Budget Estimates, Section 43: Data on
            Acquisition, Operation, and Use of Information Technology
            Systems.

     •      OMB Circular A-l30, Management of Federal Information Resourc-
            es.

     •      General Services Administration's (GSA) Federal Information
            Resources Management Regulation (FIRMR) , Part 201-7, Security
            of Information Resource Systems.

                                         2
     •    GSA's FIRMR Part 201-19, Section III, IRH Review Handbook,
          "Management of IRK Activities."

     •    5 Code of Federal Regulations, Subpart C, Section 930.301,
          Training Requirement.

     •    U.S. Department of Commerce National Bureau of Standards'
          Federal Information Processing Standards Publication No. 112,
          "Password Usage."

     •    Computer Security Act of 1987 (Public Law 100-235, Section 5).

     •    Office of Personnel Management's Federal Personnel Hanual,
          Chapter 732, "Personnel Security."

     •    18 USCS §1030, pages 291-293, "Fraud and False Statements."

     •   Robert R. Moeller's Computer Audit, Control, and Security;
         Wiley, 1989; Chapter 4, "Controls in the Distributed Network,"
         and Chapter 11, "Auditing End User Computing General Controls."

     •    ITC Guidelines:

          •    Directive 1028.1, Office of Information Resources Manage-
               ment Mission and Function Statement, dated April 21, 1991.

          •    Directive 7102.1, Guidelines for Using the USITC Local
               Area Network for Electronic Mail and Bulletin Board Pur-
               poses, dated January 8, 1990.

          •    Directive 1360, Automated Data Security Procedures, dated
               June 27, 1988.

          •    Administrative Notice ITC-N-600l, Eating, Drinking, and
               Smoking While Operating ADP and Wang Equipment, dated
               November 28, 1986.

          •    Administrative Announcement USITC FY-91-40, Issuance of
               Identification Badges and Access to the Local Area Net-
               work, dated May IS, 1991.

     The review was conducted in accordance with the Comptroller General's
Government Auditing Standards (1988 revision).




                                      3
                          REPORT ON THE REVIEW OF THE
                UNITED STATES INTERNATIONAL TRADE COMMISSION'S
                LOCAL AREA NENOn ADMINISTRATION AND CONTROLS

                            PART 2: REVIEW RESULTS


     Our findings, other matters for consideration, conclusions, and recommen-
dations are discussed in this part.


FINDINGS

     We noted certain conditions related to the management and administration
of lTC's LAN that warrant management's attention. These conditions are
discussed below:

1.   Dial-in telephone access into the LAN is not properly secured. When a
     processing system provides "dial-in" access, industry standards stipulate
     that certain control features be used, including a dial-back system or
     similar modem restriction. ITC Directive 1360, Chapter B, Section 6,
     requires that dial-in access to stand-alone microcomputers containing CBl
     (Confidential Business Information) "contain additional securityl
     communications software which prompts the user for a sign-on password and
     activates a dial back feature." The !.AN contains CBI.

     At present, the potential exists for compromise of LAN security. We
     documented one case where an individual has dial-in access to the LAN via
     a modem on the workstation without the dial-back feature being activated.
     This same individual has complete access to all records, documents, and
     data stored on a file server.

     An unknown number of additional LAN users currently   maintain dial-in
     access. LAN administrators do not know if they are    using the dial-back
     feature. Further, it is possible for an individual    user with a dial-in
     modem to completely bypass LAN security without LAN   administrators being
     aware of it.

     Prior to our review, OIRM recognized this problem and proposed a solu-
     tion. We have incorporated certain aspects of its proposal into our
     recommendation.

2.   Because of the amount of work done on weekends, ITC has identified a need
     for a weekend back-up service. All file servers on the LAN have their
     weekend files backed up except for the Offices of Industries and Investi-
     gations. These offices have specifically requested weekend backup
     service; they have, however, denied OIRM access to the file servers
     because of the sensitive nature of the files. Without this access, OIRM
     cannot provide the needed weekend backup service. ITC Directive 1028.1
     makes OIRM responsible for prOViding this service.



                                      4
3.   ITC does not have a policy describing a frequency standard for virus
     checking. Without a standard t no procedure exists to determine if the
     file servers' scanning frequency is adequate.    The file servers support-
     ed by OIRM are scanned 5 days a week, the Office of Investigations scans
     twice a week, and· the Office of Industries every 3 days. Without access
     to all file servers (as discussed in Finding No.2), OIRM cannot provide
     standardized virus checking. ITC Directive 1028.1 makes OIRK responsible
     for providing this service.

4.   ITC has no formal system or procedures to identify the type and number of
     software packages purchased or in use. Purchased software is not tracked
     in the personal property (or other control) system. As such, it cannot
     demonstrate compliance with Federal licensing statutes. A related
     negative effect of this condition is that ITC could lose available
     discounts when software upgrades are purchased, if it is unable to
     identify and document the number of original units purchased.

5.   No formal ITC statement of policy exists concerning the unauthorized use
     or duplication of copyrighted software by ITC employees. The US Code,
     Chapter 5, Copyright Infringement and Remedies, Title l7 Copyrights,
                                                              t

     states: "Anyone who violates any of the exclusive rights of the copy-
     right owner ... is an infringer of the copyright." Computer software by
     its nature is easily duplicated. ITC has considered the need for such a
     directive, but the responsible parties have been unable to agree on the
     directive's content and wording. Without such a directive, ITC may
     become responsible if employees violate the copyright law.

6.   ITC has no disaster recovery or contingency plan for offsite operation of
     the LAN in the event of a catastrophic incident. ITC has identified the
     need for a disaster recovery or contingency plan in its 5-year plan, A
     Five-Year Plan for Information Resources Management.  Although the 5-year
     plan identified a June 30, 1992, milestone for a plans and procedures
     handbook for disaster recovery/contingency operation, ITC management
     indicated that planning is in the nearly developmental stages. 1I
                                                                      Without
     its LAN capability, ITC would have difficulty carrying out its statutory
     responsibilities.

7.   ITC has no formal statement of the LAN administrator's internal control
     responsibilities. Presently, lTC's primary LAN system (Banyan Vines)
     produces various summaries of user and system status and activity. The
     senior network administrator periodically reviews the on-line logs to
     ensure that certain administrative tasks have been accomplished; however,
     this is only done when time permits. ITC should have a formal internal
     control plan for its LAN that includes procedures designed to prevent, at
     a minimum, destruction of data, data security degradation, and unautho-
     rized access to CBI.




                                       5
OTHER MATTERS FOR CONSIDERATION

     We noted certain other matters that the Director of Administration,
should consider for action. These follow:

1.   Electronic access keys issued to employees are not routinely deactivated
     upon termination of employment. ITC has no policy to routinely deacti-
     vate the electronic keys at the time of employee termination. FIRMR Part
     20l-7.105(d)(l) requires that authorized personnel be positively identi-
     fied through the use of local access control procedures. As part of our
     review, we identified former employees on the access list to the computer
     room.

2.   The USITC LAN Training user manual does not contain current and complete
     user information. As such, LAN users do not have access to sufficient,
     current documentation concerning lTC's policies and procedures regarding
     its LAN operations. As a result, users may be unaware of policies and
     procedures regarding LAN use, it may take more time for them to become
     proficient in using the LAN, and they may never learn to use some of its
     features.

3.   During our interviews of selected LAN file servers and users, certain
     respondents reported a deterioration in the quality of LAN support
     services. Because of a hiring freeze, the position of Chief, Office
     Automation Support Division, is vacant. OIRM staff have attempted to
     perform the necessary duties in the interim.


RECOMMENDATIONS REGARDING FINDINGS

     Our recommendations to strengthen policies and procedures related to the
Findings section are presented below. These recommendations are in the same
order in which the findings were presented.

1.   The Director of Administration should instruct the Director, OIRM, that
     all dial-in modems should use the dial-back control feature. Directive
     1360 should be revised, updated, and clarified.

     Modem restrictions should be employed for incoming calls to the LAN.
     Specifically, dial-in access to the LAN should be permitted only through
     a bank of personal computers set up in the computer room that run
     software that requires: (1) a password for connection, (2) activation of
     a dial-back facility, and (3) automatic capture of user identification
     for anyone using the facility. Activity should be logged and monitored
     on this bank of personal computers, and questionable log entries should
     be investigated.

2.   The Director of Administration, working with the Director of Operations,
     should make arrangements for OIRM to be granted, at a minimum, "read-
     only" access to perform weekend backups in accordance with its respon-
     sibility under ITe Directive 1028.1.


                                      6
3.   The Director of Administration. working with the Director of Operations.
     should make arrangements for OIRM to be granted. at a minimum. read-only
     access to perform virus scans in accordance with its responsibility under
     ITC Directive 1028.1.

4.   The Director of Administration should instruct the Director, DIRM. to
     complete an inventory of each software package purchased and the number
     of copies currently in use. ITC is planning to upgrade the entire LAN
     over the next 12 to 18 months. As part of the upgrade, ITC plans to
     acquire upgraded versions of much of the software currently in use. To
     obtain the upgrade price for the new software, ITC must be able to
     document how many copies of each package have been purchased.

     ITC should consider developing a formal system for identifying. counting.
     and controlling the number of copies of software on the LAN. The system
     should be capable of documenting compliance with Federal licensing
     standards and readily identifying the type and number of software
     packages purchased.

5.   The Director of Administration should issue a directive prohibiting the
     unauthorized copying of copyrighted software. The directive might
     consist of nothing more than a statement to the effect that "ITC adheres
     to the tenants of United States Code, Title 17, which expressly prohibits
     unauthorized duplication of copyrighted materials."

6.   The Director of Administration should assess the status of the disaster
     recovery (contingency) plan's development and take action to see that the
     project is completed expeditiously.

7.   The Director of Administration should instruct the Director, DlRM, to
     standardize and document procedures for the routine checking of LAN-
     produced lists and summaries. This should include the procedures
     currently conducted informally by the senior network administrator and
     OIRM staff to ensure effective internal control as well as any additional
     tasks OIRM considers necessary.

     The following additional checks should be considered for inclusion:

     •    A periodic check of logs to identify unusual cases of unautho-
          rized access attempts.

     •    A periodic check of LAN account "last access" dates to identify
          and explain accounts left idle for long periods of time.

     •   A periodic check of account access privileges to ensure that no
         individual is allowed inappropriate access rights.

     At a minimum. the procedures should specify an internal control objective
     and plan for the LAN, the minimum frequency of completion of the control
     tasks, and the individual who is responsible for each task. Performance



                                      7
     standards should be altered to reflect these new responsibilities.
     Third-party software may be available to automate many of these routine,
     repetitive processes.


Commission Comments

     The Director of Administration responded in writing to our recommenda-
tions (see appendix). He agreed with our recommendations and provided
comments on the actions taken and those that are planned. These actions
should result in improved administration and control over lTC's LAN.


SUGGESTIONS REGARDING OTHER HATTERS FOR CONSIDERATION

     Our suggestions regarding other matters for consideration are presented
below.

1.   The Director of Administration should instruct the Director, Office of
     Management Services, to implement a policy of deactivating electronic
     access keys upon termination of employment. All keys belonging to former
     employees should be assembled and deactivated.

2.   The Director of Administration should instruct the Director, OIRM, to
     upgrade the USITC LAN Training to include, at a minimum, the topics
     listed under the caption, "Network Training." The manual should also
     include copies of policies or directives that users might require.


Commission Comments

     The Director of Administration responded in writing to our suggestions
regarding other matters for consideration (see appendix). He agreed with our
suggestions and provided comments on the actions taken and those that are
planned. These actions should result in improvements regarding the adminis-
tration and control over lTC's LAN.




                                      8
                                                               Appendix


                                                        AD-p-S28




                        . --.:.,: .1"
                                        _.'   ~.   I)




August 1.2, 1.992


MEMORANDUM


TO:           inspector General                                       ,

F1l.OM:     ~irector,     Office of Administration       fYJrrJ~
SUBJECT:      Draft Report, ·Review of USITC's Local Area
              Network Administration and Controls n

As requested by your memorandum dated July 16, 1992
(IG-P-038), submitted herewith is the Office of
Administrationls response to the subject draft audit
report issued July 16, 1992. In accordance with Section
11 of the USITC Directive 1701, the Commissioners have had
an opportunity to comment on the response and the Chairman
has approved it with modifications.

The Office of Administration agrees with all the audit
recommendations. The attached response includes the
actions to be taken and the target completion dates.

Please call me at 20S-3131 or Bill Stuchbery at 20S-3135
if you have any questions.


ATTACHMENTS

cc:       Director, Office of Information Resources Management
          Director, Office of Management Services
            ADMINISTRATION'S COMMENTS ON THE DRAFT REPORT

RECOMMENDATIONS REGARDING PINDINGS


RECOMMENDATION:

1.   The Director of Administration should instruct the Director,
     OIRM that all dial-in modems should use the call-back
     control feature. Directive 1360 should be revised, updated,
     and clarified.

     Modem restrictions should be employed for incoming calls to
     the LAN. Specifically, dial-in access should be pe~itted
     only through a bank of personal computers set up in the
     computer roam that run software that requires: (1) a
     password for connection, (2) activation of a dial-back
     facility, and (3) automatic capture of user identification
     for anyone using the facility.  Activity should be logged
     and monitored on this bank of personal computers, and
     questionable log entries should be investigated.

RESPONSE:    AGREE

Revision of Directive 1360 was started as part of the
Administration1s directives update procedure and prior to the IG
conducting a study on LAN Administration and Controls. There is
a chronology of events associated with the completion of the
revision of Directive 1360 in that it cannot be completed until
other recommendations are implemented and procedures written to
be incorporated in the Directive. Therefore the revision to
Directive 1360 is scheduled to be completed 30 days after the
completion of the -dial-in/call back" system as identified
below.

TARGET COMPLETION DATE:    January 29, 1993

Working with the Information Security Committee, OIRH will
institute a central network dial-in facility with call-back,
password, and capture of user ID to be installed in the ITC
Computer Roam. Logs of use will be periodically reviewed. All
Commission-owned copies of "Carbon-Copy·, ·Pc-AnyWhere·, and any
other software which allows dial-in access to individual PCs with
modems will be collected by OIRH. This procedure will be
incorporated into Directive 1360 and will state that users are
not allowed to dial-into their individual PCs.

 A target completion date of 12/31/92 has been chosen since
 software must be purchased and PCs which will be turned in as a
 result of the ORB II purchase (approved August 3, 1992) will be
 used for the central network dial-in facility. Once the "dial-
 in/call back" system has been fully tested and tmplemented, the
 procedures will be incorporated into Directive 1360.
TARGET COMPLETION DATE:   December 31, 1992


RECOMMENDATJ;ON:

2.   The Director of Administration~ working with the Director of
     Operations, should make arrangements for OIRM to be granted,
     at a min~um, "read-only· access to perform weekend backups
     in accordance with its responsibility under ITC Directive
     1028.1

RESPONSE:   AGREE

The Directors of Administration and Operations should work out an
agreement whereby the Director of Operations will instruct the
Directors of Industries and Investigations to place OIRH's Senior
Network Administrators on their Server Adminlists.  (OIRH will
then take ~ediate action to include those offices in the
already established week-end back-up procedures.)

TARGET COMPLETION DATE:   October 30, 1992


RECOMMENDATION:

3.   The Director of Administration, working with the Director of
     Operations, should make arrangements for OIRM to be granted,
     at a min~um, "read-only" access to perfo~ virus scans in
     accordance with its responsibility under ITC Directive
     1028.1

RESPONSE:   AGREE

The Director of Operations should instruct the Directors of
Industries and Investigations to place OIRH's Senior Network
Administrators on their Server Adminlists.  (OIRH will take
~ediate action to include those offices in OIRM's established
virus scanning procedures.)

TARGET COMPLETION DATE:   October 30, 1992


RECOMMENDATION:

4.    The Director of administration should instruct the Director,
      OIRM, to complete an inventory of each software package
      purchased and the number of copies currently in use. ITC is
      planning to upgrade the entire LAN over the next 12 to 18
      months. As part of the upgrade, ITC plans to acquire
      upgraded versions of much of the software currently in use.
      To obtain the upgrade price for the new software, ITC must
      be able to document how many copies of each package have
      been purchased.
     ITC should consider developing a fo~l system for
     identifying, counting, and controlling the number of copies
     on the LAN'. The system should be capable of documenting
     compli~ce with Pederal licensing standards and readily
     identi~ying the type and number of software packages
     purchased.

RESPONSE:   AGREE (with Qualification)

The OIRK network administrators will develop an inventory system
for all purchased software used on the 'network '• This inventory
will be updated as new software is purchased and include
office/individual initially issued software (if standalone copy)
or server loaded on (if LAN copy). OIRM will track the
development of third party, Banyan compatible, network tools for
software control and consider implementing when an appropriate
package is identified.

To the extent possible. OIRM will research and acquire software
to scan individual PCs for all software in use. including that
software acquired prior to the new inventory being established.
Completion of this task for Cbe entire Network will also require
the Director of Operations to instruct the Directors of
Industries and Investigations to place OIRMls Senior Network
Administrators on their Server Adminlists.    Without the
availability of an appropriate software tool. it would be too
time consuming and of questionable value to inventory all
software lin use l on individual PCs just prior to the phaseout of
those PCs.

TARGET COMPLETION DATE:   March 31. 1993


RECOMMENDATION:

5.   The Director of Administration should issue a directive
     prohibiting the unauthorized copying of copyrighted
     software. The directive might consist of nothing more than
     a statement to the effect that "ITC adheres to the tenants
     of Title 17, U.S.C •• which expressly prohibits unauthorized
     duplication of copyrighted materials. II


RESPONSE    AGREE

We will forward to the Chai~ for approval an Administrative
Order prohibiting the unauthorized copying of copyrighted
software. This prohibition will subsequently be made a part of
ITC Directive 1360.

TARGET COMPLETION DATE:    September 15, 1992


 RECOMMENDATION:
6.   The Director of Administration should issue the status o£
     the disaster recovery (contingency) plan's development and
     take action to see that the project is completed
     expedit.iously.
RESPONSE:    AGREE
This will be part of an overall emergency recovery plan which
includes information security, documents protection, facilities
protection and relocation as well as the IRK contingency plans.
This is included in the Director of Administration's SES work
plan. Be will give periodic status updates to the Chairman- s
office.
TARGET COMPLETION DATE:   January 1S, 1993
RECOMMENDATION:
7.   The Director of Administration should instruct the Director,
     OXRH, to standardize and document procedures for the routine
     checking of LAN produced lists and summaries. This should
     include the procedures currently conducted info~lly by the
     senior network administrator and OIRH staff to ensure
     effective internal control as well as any additional tasks
     OIRM considers necessary.
     The following additional checks should.be considered for
     inclusion:
     - A periodic check of logs to identify unusual cases of
     unauthorized access attempts.
     - A periodic check of LAN account Rlast access R dates to
     identify and explain accounts left idle for long periods of
     time.
      - A periodic check of account access privileges to ensure
      that no individual is allowed inappropriate access rights.
     At a min~, the procedures should specify an internal
     control objective and plan for the LAN, the min~um
     frequency of campletion of the control tasks, and the
     individual who is responsible for each task. Perfo~ce
     standards should be altered to reflect these new
     responsibilities. Third-party software may be available to
     automate many of these routine, repetitive processes.
 RESPONSE:   AGREE
 OIRK will document the procedures, standards, and     _
 responsibilities for monitoring ehe network, and include the
 additional checks recommended by the Auditors. These will be
 incorporated tDto a standard Internal Control procedure for
annual follow-up.

A target completion date of May 28, 1993 has been chosen to al.l.ow
the new Chi~f, Office Automation Support Division t~e to became
familiar with his or her duties and responsibilities. The
Chairman approved on August 3, 1992, a waiver to the Commission's
hiring maritorium to fill this position.

TARGET COMPLETION DATE:    May 28, 1993


SUGGESTIONS   REGARD~G   OTHER MATTERS FOR CONSIDERATION:

1.   The Director of Administration should instruct the Director,
     Office of Management Services, to implement a policy of
     deactivating electronic access keys upon te~ination of
     employment. All keys belonging to fo~er employees should
     be deactivated.

RESPONSE:   AGREE

Although there were foxmer employees on the access list to the
computer room, their access keys were in a safe under the control
of the Security Officer in OMS. To maintain the accuracy of the
access list the Security Officer is now notifying Kastle Co. to
deactivate the keys as they are returned.

TARGET COMPLETION DATE:     Completed


2.   The Director of Administration should instruct the Director,
     OIRM, to upgrade the USITC LAN Training Manual to include,
     at a minimum, the topics listed under the caption, WNetwork
     Training. w The manual should also include copies of
     policies or directives that users might require.

RESPONSE:     AGREE

The Senior Network Administrator responsible for conducting the
Network Training class, will re-write the manual according to the
recommendations in the Inspector General's report.

TARGET COMPLETION DATE:     February 26, 1993
